     U.S. ELECTION ASSISTANCE COMMISSION 

          OFFICE OF INSPECTOR GENERAL






                        Management Letter:
        Issues Identified During the Audit of the
         U.S. Election Assistance Commission’s
          Fiscal Year 2008 Financial Statements




NO. I-PA-EAC-01-08(A)
MARCH 2009
                             U.S. ELECTION ASSISTANCE COMMISSION

                                     OFFICE OF INSPECTOR GENERAL

                                   1225 New York Ave. NW - Suite 1100 

                                         Washington, DC 20005





                                                                            March 31, 2009

To: 	    Gineen B. Beach
         Chair, U.S. Election Assistance Commission

From:   	Curtis W. Crider
         Inspector General

Subject: 	Management Issues Identified During the Audit of the U.S. Election Assistance
          Commission’s Fiscal Year 2008 Financial Statements
          (Assignment No. I-PA-EAC-01-08(A))

        We contracted with Clifton Gunderson LLP (Clifton Gunderson), an independent
certified public accounting firm, to audit the U.S. Election Assistance Commission’s
(Commission) financial statements as of September 30, 2008 and for the year then ended.
In conjunction with its audit, Clifton Gunderson noted certain matters involving internal
control and other operational matters that should be brought to management’s attention.
These matters, which are discussed in the attached letter, are in addition to those reported
in Clifton Gunderson’s audit report on the Commission’s financial statements
(Assignment No. I-PA-EAC-01-08) and do not constitute significant deficiencies as
defined by the American Institute of Certified Public Accountants.

       Based on the information provided in the February 20, 2009 response to the draft
management letter, we consider all of the suggestions implemented. The Office of
Inspector General will follow-up on the suggestions as a part of the Fiscal Year 2009
financial statement audit.

         The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendations, and
recommendations that have not been implemented. Therefore, we will include the
information in the attachment in our next semiannual report to Congress. The distribution
of this report is not restricted, and copies are available for public inspection.

        We appreciate the cooperation and assistance of EAC personnel during the audit.
If you or your staff has any questions, please contact me at (202) 566-3125.

Attachment

Cc: Commissioners Hillman, Davidson
    Executive Director
    Chief Operating Officer
    Chief Financial Officer
    a1


    November 7, 2008

    To the Executive Director
    To the Inspector General
    Election Assistance Commission
    Washington, DC

    We were engaged to audit the financial statements of the Election Assistance Commission
    (EAC) as of and for the year ended September 30, 2008, and have issued our reports dated
    November 7, 2008, which included reports on internal control and compliance with laws and
    regulations. During the course of the engagement, we noted certain matters which we would like
    to bring to your attention related to internal control and operations at the EAC that are not
    considered “Significant Deficiencies” as defined by the standards issued by the American
    Institute of Certified Public Accountants, but are important to the overall internal control structure
    of the EAC. Therefore, we offer the following observations and suggestions which are intended
    to improve internal control and operational effectiveness at the EAC.


    I.	 	 Management Representation Letter

          Observation:	 	 The management representation letter serves to document representations
                          explicitly or implicitly made by management in response to the auditors’
                          specific inquiries or through the financial statements. Management’s
                          representations complement the auditors’ other audit procedures and are
                          an essential component of the audit evidence the auditor needs to afford a
                          reasonable basis for an opinion regarding the financial statements under
                          audit. The evidentiary value of the management representation letter is of
                          such significance that a failure to obtain written representations precludes
                          the auditor from issuing an unqualified opinion and will usually cause the
                          auditor to disclaim an opinion.1 In addition, Generally Accepted Auditing
                          Standards (GAAS) considers management representations to be of such
                          importance that GAAS requires auditors to consider whether reliance on all
                          of management’s representations is appropriate and justified if any of the
                          representations made are contradicted by other audit evidence.

                             We made the following observations regarding the representations made by
                             EAC’s management:

                             •		 The representation letter was signed by a consultant in addition to
                                 management. The GAO/PCIE Financial Audit Manual Section 1001.04
                                 states, “The auditor should obtain the management representation letter
                                 from the highest level of the audited entity.” FAM 1001.04 further states,
                                 “Signers should be officials who are responsible for and knowledgeable,
                                 directly or through others, about the matters in the representation letter.
                                 These officials generally should be the head of the federal entity and
                                 the CFO, or equivalent.”
    1
        AU Section 333, Management Representations, paragraph .13
 
11710 Beltsville Drive 
Suite 300 
Calverton, MD  20705­3106 
tel:  301­931­2050 
fax: 301­931­1710 
 

www.cliftoncpa.com                      Offices in 17 states and Washington, DC            h 
Election Assistance Commission
November 7, 2008
Page 2


                  •		 The representations did not include the possible non-compliance with
                      the Anti-deficiency Act related to transactions charged against the
                      Election Reforms Payments (ERP) Fund that EAC is investigating. AU
                      §333.06 states, “In connection with an audit of financial statements
                      presented in accordance with generally accepted accounting principles,
                      specific representations should related to….Violations or possible
                      violations of laws or regulations whose effects should be considered for
                      disclosure in the financial statements or as a basis…”

                  •		 Management represented that to the best of their knowledge and belief
                      that the financial statements are fairly presented in conformity with U.S.
                      generally accepted accounting principles. Although we could not
                      determine whether EAC’s financial statements are fairly presented, we
                      noted several control deficiencies that raise doubts as to their fair
                      presentation. These deficiencies are discussed in detail in our
                      Independent Auditor’s Report on Internal Control over Financial
                      Reporting.

   Suggestions:
                  •		 We suggest that management ensures the representations it makes to
                      auditors are not contradictory with other information in EAC’s reports or
                      to information provided during the audit.
                  •		 We suggest that only members of EAC management who are
                      responsible for and knowledgeable, directly or through others, about the
                      matters in the representation letter sign the management representation
                      letter.
                  •		 We suggest that EAC provide appropriate representations regarding
                      any possible violation of the Anti-deficiency Act that it identifies in future
                      representation letters.
                  •		 EAC management informed CG it plans to hire an experienced Federal
                      financial manager to serve as the Chief Financial Officer of the EAC. AU
                      §333.10 requires auditors to obtain representations from management
                      for the entire period under audit even if current management was not
                      present during all periods covered under the auditor’s report. We
                      suggest that EAC take the necessary steps to provide its CFO, when
                      hired, the information necessary to be able to make the required
                      representations to the auditors.

                    .
Election Assistance Commission
November 7, 2008
Page 3


II.	 	Implementation of Financial Reporting and Performance and Accountability
    Requirements

    Observation:	 	 FY08 was the first year in EAC’s five-year history that the agency was
                    subject to the requirements of the Office and Management and Budget
                    (OMB) Circular A-136 Financial Reporting Requirements. In its response to
                    our reports EAC management recognized the challenge it faced in
                    producing auditable financial statements during its first audit and
                    acknowledged improvements are necessary to its internal control structure
                    in order to meet the requirements of OMB A-136. EAC outlined key aspects
                    of its improvement plan in its response to our report which included the
                    following “next steps:”

                    •		   Hire a Chief Financial Officer,
                    •		   Evaluate the existing accounting system and correct accounting data,
                    •		   Restructure accounting operations; and
                    •		   Implement performance-based budgeting.

    Suggestion:	 	 As EAC executes these next steps and continues to refine its improvement
                   plan we suggest that EAC management consider utilizing the following
                   “best practices” guides produced by the Government Accountability Office
                   (GAO):

                    •		 Executive Guide: Creating Value Through World-class Financial
                        Management, April 2000, GAO/AIMD-00-134, and
                    •		 Executive Guide: Effectively Implementing the Government
                        Performance and Results Act, June 1996, GAO/GGD-96-118
                    •		 2010-Checklist for Federal Accounting
                    •		 2020-Checklist for Federal Reporting


III.	 Payroll
      	

    Observation:	 	 Supervisory authorization and approval is a key internal control for ensuring
                    the propriety of Time and Attendance (T&A) information. The GAO’s
                    Maintaining Effective Control over Employee Time and Attendance
                    Reporting states “the supervisor has primary responsibility for authorizing
                    and approving T&A transactions. To help ensure proper recording of T&A
                    information, completed T&A records should be reviewed and approved by
                    the supervisor or other equivalent official.” Timecards submitted to EAC’s
                    payroll service provider are not approved by the supervisor.

    Suggestion:	 	 EAC management should revise current policy to require timecards be
                   approved by the official, normally the immediate supervisor, most
                   knowledgeable of the time worked by and absence of the employee
                   involved. Approval of the document should be based on personal
                   observation, work output or similar activities.
Election Assistance Commission
November 7, 2008
Page 4


                                 *************************************


AUDITOR’S EVALUATION OF EAC MANAGEMENT’S RESPONSE

In commenting on a draft of this report (Exhibit 1), EAC management disagrees with the
observation related to the management representation letter but agrees with the observations
and suggestions related to the implementation of financial reporting and accountability
requirements and the payroll.

We agree with EAC management that the appropriate EAC officials signed the management
representation letter. Our observation highlighting the additional consultant’s signature on the
management representation letter is for the purpose of communicating to EAC management
that internal control is management’s responsibility and the financial statements are
management’s representation. We also would like to state that the auditor provided a
management representation template and communicated to EAC management the officials that
we identified as appropriate signatories.

We disagree with EAC management’s response on the observation related to the non-
representation of the possible non-compliance with the Anti-Deficiency Act. It is management’s
responsibility, not the auditors, to determine violation of the Anti-Deficiency Act. EAC
management could not provide adequate, complete, and appropriate documentation to enable
the auditor to perform the procedures necessary to propose an audit adjustment, if necessary.

We also disagree with EAC management’s response on the observation related to management
representation on the fair presentation of the financial statements. Internal control, as defined in
the GAO’s Standards for Internal Control for the Federal Government, is an integral component
of an organization’s management that provides reasonable assurance of the reliability of
financial reporting [underlined for emphasis]. In response to the Independent Auditor’s Report
on Internal Control over Financial Reporting, EAC management stated that “The EAC
recognized that it would be a challenge for the agency to produce auditable financial statements
this year.”


                         *****************************************************


This letter is intended solely for the information and use of management of the EAC, the
Inspector General of the EAC, the Office of Management and Budget and Congress and is not
intended to be and should not be used by anyone other than these specified parties.


a1 
Calverton, Maryland
November 7, 2008
EXHIBIT 1 – ELECTION ASSISTANCE COMMISSION MANAGEMENT’S RESPONSE


See Auditor’s Evaluation of Election Assistance Commission Management’s Response
                         on page 4 of the Management Letter
                        u.s. ELECTION ASSISTANCE COMMISSION
                        1225 New York Ave. NW - Suite 1100
                        Washington, DC 20005




                                                             February 20,2009


To: 	   Curtis W. Crider
        Inspector General



From: 	 Gineen Bresso Beach
        Chair, U.S. Election Assistance Commission

Subject: Draft Management Letter

       In response to your letter, dated February 4,2009, regarding the report findings
and recommendations ofthe Clifton Gunderson, LLP (Clifton Gunderson) audit of the
U.S. Election Assistance Commission (EAC), we are providing comments and responses.
As requested, the comments indicate whether or not EAC Management agrees or
disagrees with the comment. Also, basis and support for disagreements are included.

        It is the hope of the EAC that the final management letter will benefit from this
reply. If you have any questions, please contact Alice Miller, our Chief Operating
Officer, at (202) 566-3110 or Annette Lafferty, our Chief Operating Officer, at (202)
566-0355.

Attachment

CC: 	   Commissioners Davidson, Hillman, Rodriguez
        Tom Wilkey, Executive Director
        Alice Miller, Chief Operating Officer
        Annette Lafferty, Chief Financial Officer
I. Management Representation Letter

Comment
“The representation letter was signed by a consultant in addition to management. The
GAO/PCIE Financial Audit Manual Section 1001.04 states “The auditor should obtain the
management representation letter from the highest level of the audited entity.” FAM 1001.04
further states, “Signers should be officials who…are responsible for and knowledgeable, directly
or through others, about the matters in the representation letter. These officials generally should
be the head of the federal entity and the CFO, or equivalent.”

Response
The representation letter was signed by officials who are responsible for and directly through
others and about the matters in the representation letter. Those officials included the agency
Commission Chair and the Chief Executive Officer. The GAO Audit manual states:

       •		 The auditor should obtain the management representation letter from the highest level
           of the audited entity. The auditor should decide who to ask to sign the management
           representation letter. Signers should be officials who, in the auditor’s view, are
           responsible for and knowledgeable, directly or through others, about the matters in
           the representation letter. These officials generally should be the head of the federal
           entity and the CFO, or equivalent.
It is clearly the responsibility of the auditor to make the determination of who should sign the 

letter. To our knowledge, no such written direction was given. Additionally, the guidance, does 

not indicate who should not sign the letter, only who should. The consultant had been required 

by auditors of another client in a similar situation to sign the management letter. He discussed 

management’s decision to include him as a signer verbally with Clifton Gunderson’s auditors on 

the week of November 10, 2008 and no objection was raised by Clifton Gunderson at that point. 

Considering the Consultant’s significant level of involvement in the financial statement 

preparation it is his professional opinion that it is both proper and necessary for him to have 

signed the letter. Accordingly, we disagree with this finding. 

With regards to future management letters, management suggests that the auditors clearly 

designate who should sign the letter, and approve the list of signers before the process is 

completed. 


Comment 

The representations did not include the possible non-compliance with the Anti-deficiency Act 

related to transactions charged against the Election Reforms Payments (ERP) Fund that EAC is 

investigating. AU §333.06 states, “In connection with an audit of financial statements presented 

in accordance with generally accepted accounting principles, specific representations should 

related to….Violations or possible violations of laws or regulations whose effects should be 

considered for disclosure in the financial statements or as a basis…” 


Response
 

The full text of the AU §333.06 citation is as follows:
 


       •		 “Violations or possible violations of laws or regulations whose effects
 

           should be considered for disclosure in the financial statements or as a
 

           basis for recording a loss contingency”.
 



                                                   1


The relevance and importance of this section has to do with the impact of the effects of the
possible violation either in the financial statements themselves, notes to the financial statements
or both. The matter identified to the auditors by the IG as a potential violation of the Anti-
Deficiency act was clearly known to the auditors. Management responded to this issue during
the audit by maintaining it would conduct a reconstruction of the books necessary to evaluate
what impact (effects) if any, the matter had on the financial statements. On November 7, 2008,
the consultant sent an email to the Clifton Gunderson’s Chief Auditor asking her to identify all
adjusting entries:

       Consultant’s email:

       Attached is a recomputation of the amount indicated in PBC 605 as of 6/30/08 plus a
       similar calculation for 9/30/08. Based on the recalculation, we do not believe an
       adjustment is required to the financial statements for $49,220.68.

       As management representations are somewhat dependent on whether or not CG has
       proposed audit adjustments, EAC needs your response to this and any other proposed
       adjustments in order to respond in a complete and accurate way in the management
       letter.

       Accordingly, please indicate in your response, all outstanding audit adjustments which
       CG has proposed. EAC would like this information COB today in order to evaluate the
       entries and to allow us to comply with the 11/9/08 management letter delivery deadline.

       Thanks,
       (consultant)

       Auditor’s Response
       [Consultant]

       Just wanted to let you know that I've received your email. I'm unable to review the
       analysis right now but will get back to you as soon as I can.

       Thanks,
       [Auditor]

EAC Consultant received no additional response from Clifton Gunderson’s Auditors to whom the
email was forwarded .

The relevance of this to the matter at hand is that there was no loss contingency adjustment
proposed by the auditors which should have been included on the financial statements. With
regard to any disclosure of the item on the financial statements, this too was not identified as a
deficiency or required disclosure during specific review and comments submitted by the auditor
on November 7.

Furthermore, the audit standard requires the “effects” be considered in the financial statements
or notes. We cannot adjust the financial statements if we cannot discern the effects, if any. Any
disclosure would have the potential of being misleading.




                                                 2


In practice, the preparation and signature of the management representation letter is usually a
much more corroborative effort between the auditor and the client. It is the auditor’s
responsibility to obtain the representations they feel are necessary in the circumstances:

From the GAO FAM Section 1001.03:

      “The specific representations obtained will depend on the circumstances of the
      engagement and the nature and basis of presentation of the financial statements. These
      representations apply to all the financial statements and all periods covered by the audit
      report. In addition to the representations in the AICPA standards, the auditor generally
      should determine the need to obtain representations on other matters based on the
      circumstances of the audited entity. Also, the auditor should delete inapplicable
      representations in the example representation letter in FAM 1001 A and should
      customize the letter to the situation of the entity being audited.”
From GAO FAM Section 1001.10

      “The auditor should determine the need for additional customizing of the example
      representation letter in FAM 1001 A and for the additional representations in FAM
      1001.09. Many of the representations may have to be qualified, especially in an initial
      audit or in later audits where significant problems remain. For instance, where the
      example representation letter states that there are no violations of laws or regulations, the
      entity may need to add at the end of the statement, “except as follows:” and describe the
      violations.”
In our opinion, there was a lack of guidance by Clifton Gunderson in obtaining the required
management representations. We disagree with their characterization of this issue and
vigorously maintain that the representations are proper.

In the future, management will be aware of the process required by the GAO FAM, and insist
that the auditors provide an applicable sample letter for review and signature. Any discrepancies
should be resolved prior to signing the letter so that the representations made are what are both
expected and required.


Comment
“Management represented that to the best of their knowledge and belief that the financial
statements are fairly presented in conformity with U.S. generally accepted accounting principles.
Although we could not determine whether EAC’s financial statements are fairly presented, we
noted several control deficiencies that raise doubts as to their fair presentation. These
deficiencies are discussed in detail in our Independent Auditor’s Report on Internal Control over
Financial Reporting.”

Response
Financial statements can be in conformity with GAAP even though internal control weaknesses
may exist. The question is whether the nature of the internal control weaknesses would prevent
management from making the representation that “…to the best of their knowledge…” the
financial statements were fairly presented. The internal control issues identified by the auditors
which may have an impact on the financial statements have to do with accounting related
issues. As indicated above, the auditors did not propose any adjusting entries. Furthermore,
they were unable to quantify the impact (if any) of the accounting issues. To our knowledge,
they did not modify the language in a sample management letter to revise the language as

                                                3




required by the audit standards. Accordingly, we disagree with this comment and maintain that
the representations were proper.

Comment
EAC management informed CG it plans to hire an experienced Federal financial manager to
serve as the Chief Financial Officer of the EAC. AU §333.10 requires auditors to obtain
representations from management for the entire period under audit even if current management
was not present during all periods covered under the auditor’s report. We suggest that EAC take
the necessary steps to provide its CFO, when hired, the information necessary to be able to
make the required representations to the auditors.

Response
EAC management agrees with this comment and will take the necessary steps to make the
required representations to the auditors.

II. Implementation of Financial Reporting and Performance and Accountability
Requirements

Comments
As EAC executes these next steps and continues to refine its improvement plan we suggest that
EAC management consider utilizing the following “best practices” guides produced by the
Government Accountability Office:

       •		 Executive Guide: Creating Value Through World-class Financial Management, April
           2000, GAO/AIMD-00-134, and
       •		 Executive Guide: Effectively Implementing the Government Performance and Results
           Act, June 1996, GAO/GGD-96-118
       •		 2010- Checklist for Federal Accounting
       •		 2020-Checklist for Federal Reporting

Response
EAC is in agreement with the recommendation and will consider utilizing the above referenced
“best practices” guides.

III. Payroll

Comment
 

EAC management should revise current policy to require timecards be approved by the official,
 

normally the immediate supervisor, most knowledgeable of the time worked by and absence of
 

the employee involved. Approval of the document should be based on personal observation,
 

work output or similar activities.
 


Response 

EAC agrees with this comment and will consider the best way to implement this 

recommendation in connection with its overall financial management improvement plan. 



                                               4




                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
